VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                       Inspection of 

                                                                    VA Regional Office
                                                                    St. Louis, Missouri




                                                                                     July 24, 2014
                                                                                     14-01497-188
                                 ACRONYMS

FY           Fiscal Year
OIG          Office of Inspector General
RVSR         Rating Veterans Service Representative
SAO          Systematic Analysis of Operations
SMC          Special Monthly Compensation
TBI          Traumatic Brain Injury
VA           Veterans Affairs
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration
VSC          Veterans Service Center




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                           Telephone: 1-800-488-8244 

                          Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline) 

                  Report Highlights: Inspection of VA
                  Regional Office St. Louis, MO

Why We Did This Review                            timely. However, staff delayed completion
                                                  of 7 of the 30 rating reduction claims we
The Veterans Benefits Administration              reviewed because management placed a
(VBA) has 56 VA Regional Offices                  higher priority on other work.
(VAROs) and a Veterans Service Center in
Cheyenne, WY, that process disability             What We Recommend
claims and provide a range of services to
veterans. We evaluated the St. Louis VARO         We recommended the VARO Director
to see how well it accomplishes this mission.     implement the plans needed to ensure timely
                                                  and appropriate action on reminder
What We Found                                     notifications for medical reexaminations,
                                                  appropriate action on the 559 temporary
Overall, VARO staff did not accurately            100 percent disability evaluations remaining
process 31 (34 percent) of 90 disability          from our inspection universe, staff assigned
claims reviewed. We sampled claims we             to a specialized team process TBI and SMC
considered at higher risk of processing           claims, clarify local policy by clearly
errors, thus these results do not represent the   defining which SMC claims require
overall accuracy of disability claims             processing by a specialized team, staff
processing at this VARO.                Claims    comply with local policy requiring Decision
processing that lacks compliance with VBA         Review Officers to conduct second-
procedures can result in the risk of paying       signature reviews of SMC claims, and
inaccurate and unnecessary financial              prioritization of benefits reduction actions in
benefits.                                         order to minimize improper payments to
                                                  veterans.
Nineteen of 30 temporary 100 percent
disability evaluations we reviewed were           Agency Comments
inaccurate, generally because VARO staff
delayed ordering medical reexaminations on        The VARO Director concurred with all
average for 9 months after receiving              recommendations and the planned corrective
reminder     notifications.   VARO       staff    actions are generally responsive. However,
incorrectly processed 4 of 30 traumatic brain     we remain concerned that potential delays in
injury (TBI) claims. Staff also incorrectly       addressing issues related to temporary
processed 8 of 30 claims related to special       100 percent disability evaluations and
monthly compensation (SMC) and ancillary          benefit reductions will result in continued
benefits. Generally, the errors in TBI and        improper payments. We will follow up on
SMC and ancillary benefits processing were        all actions.
due to lack of oversight to ensure these
complex claims were completed and
reviewed by designated staff.
                                                             LINDA A. HALLIDAY
VARO managers ensured Systematic                         Assistant Inspector General 

Analyses of Operations were complete and                  for Audits and Evaluations

                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    I. 	 Disability Claims Processing.................................................................................................2
 

              Finding 1           St. Louis VARO Could Improve Disability Claims Processing 

                                  Accuracy ......................................................................................................2
 

                                  Recommendations........................................................................................9
 

    II. Management Controls .........................................................................................................11


              Finding 2           VARO Lacked Oversight To Ensure Immediate Action On Benefit 

                                  Reductions..................................................................................................12
 

                                  Recommendation .......................................................................................13
 

Appendix A                        VARO Profile and Scope of Inspection .....................................................14
 

Appendix B                        Inspection Summary ..................................................................................16


Appendix C                        VARO Director’s Comments.....................................................................17


Appendix D                        OIG Contact and Staff Acknowledgments ................................................20


Appendix E                        Report Distribution ....................................................................................21

                                                             Inspection of the VARO St. Louis, MO



                    INTRODUCTION
Objective           The Benefits Inspection Program is part of the Office of Inspector General’s
                    (OIG) efforts to ensure our Nation’s veterans receive timely and accurate
                    benefits and services. The Benefits Inspection Divisions contribute to
                    improved management of benefits processing activities and veterans’
                    services by conducting onsite inspections at VA Regional Offices (VAROs).
                    These independent inspections provide recurring oversight focused on
                    disability compensation claims processing and performance of Veterans
                    Service Center (VSC) operations. The objectives of the inspections are to:

                    	 Evaluate how well VAROs are accomplishing their mission of providing
                       veterans with access to high-quality benefits and services.
                    	 Determine whether management controls ensure compliance with VA
                       regulations and policies; assist management in achieving program goals;
                       and minimize the risk of fraud, waste, and other abuses.
                    	 Identify and report systemic trends in VARO operations.

                    In addition to this oversight, inspections may examine issues or allegations
                    referred by VA employees, members of Congress, or other stakeholders.

Other               The following appendixes provide additional information:
Information
                    	 Appendix A includes details on the VARO and the scope of our
                       inspection.
                    	 Appendix B outlines criteria we used to evaluate each operational
                       activity and a summary of our inspection results.
                    	 Appendix C provides the St. Louis VARO Director’s comments on a
                       draft of this report.




VA Office of Inspector General                                                                  1
                                                                      Inspection of the VARO St. Louis, MO



                     RESULTS AND RECOMMENDATIONS
                     I. Disability Claims Processing

Claims               The OIG Benefits Inspection team focused on accuracy in processing
Processing           temporary 100 percent disability evaluations, traumatic brain injury (TBI)
Accuracy             claims, and special monthly compensation (SMC) and ancillary benefits. We
                     evaluated these claims processing issues and their effect on veterans’
                     benefits.

Finding 1            St. Louis VARO Could Improve Disability Claims Processing
                     Accuracy

                     The St. Louis VARO did not consistently process temporary 100 percent
                     disability evaluations, TBI-related cases, or entitlement to SMC and ancillary
                     benefits. Overall, VARO staff incorrectly processed 31 of the total 90
                     disability claims we sampled, resulting in 198 improper monthly payments to
                     11 veterans totaling approximately $181,665.

                     We sampled claims related only to specific conditions that we considered at
                     higher risk of processing errors. As a result, the errors identified do not
                     represent the universe of disability claims or the overall accuracy rate at this
                     VARO. The table below reflects the errors affecting veterans’ benefits and
                     those with the potential to affect future benefits, processed at the St. Louis
                     VARO.

                     Table 1. St. Louis VARO Disability Claims Processing Accuracy

                                                                                Claims
                                                             Claims
                                                                             Inaccurately
                                                           Inaccurately
                                                                            Processed with     Total Claims
                                        Total Claims      Processed that
                 Type of Claim                                               the Potential     Inaccurately
                                         Reviewed            Affected
                                                                               To Affect        Processed
                                                            Veterans’
                                                                               Veterans’
                                                             Benefits
                                                                               Benefits
             Temporary 100 Percent
                                              30                 5                14                19
             Disability Evaluations
             TBI Claims                       30                 1                 3                 4
             SMC and Ancillary
                                              30                 5                 3                 8
             Benefits
                      Total                   90                11                20                31
             Source: VA OIG analysis of VBA’s temporary 100 percent disability evaluations paid at least 18
             months, TBI disability claims completed in the first quarter fiscal year (FY) 2014, and SMC and
             ancillary benefits claims completed in calendar year 2013




VA Office of Inspector General                                                                                 2
                                                               Inspection of the VARO St. Louis, MO


Temporary           VARO staff incorrectly processed 19 of 30 temporary 100 percent disability
100 Percent         evaluations we reviewed. VBA policy requires a temporary 100 percent
Disability
Evaluations
                    disability evaluation for a veteran’s service-connected disability following
                    surgery or when specific treatment is needed. At the end of a mandated
                    period of convalescence or treatment, VARO staff must request a follow-up
                    medical examination to help determine whether to continue the veteran’s
                    100 percent disability evaluation.

                    For temporary 100 percent disability evaluations, VSC staff must input
                    suspense diaries in VBA’s electronic system. A suspense diary is a
                    processing command that establishes a date when VSC staff must schedule a
                    medical reexamination. As a suspense diary matures, the electronic system
                    generates a reminder notification to alert VSC staff to schedule the medical
                    reexamination. VSC staff then have 30 days to process the reminder
                    notification by establishing an appropriate control to initiate action.

                    Available medical evidence showed 5 of the 19 processing errors we
                    identified affected benefits and resulted in 62 improper monthly payments to
                    5 veterans totaling approximately $27,601 from April 2011 until February
                    2014.

                    Details on the 19 cases we identified with errors follows.

                    	 Thirteen errors occurred when VARO staff delayed scheduling required
                       VA reexaminations despite receiving reminder notifications that the
                       reexaminations were due. In most cases, the VARO lacks the medical
                       information needed to determine if the temporary 100 percent disability
                       evaluations should continue.
                    	 Two errors occurred when VARO staff did not take timely action to
                       reduce benefits after notifying the veteran of the intent to do so. In both
                       cases, available medical evidence showed the veteran’s condition no
                       longer supported the temporary 100 percent disability evaluation. In the
                       first case, the veteran received approximately $11,779 in improper
                       payments over a 5-month period. In the second case, the veteran
                       received approximately $6,329 in improper payments over a 4-month
                       period.
                    	 Two errors occurred when Rating Veterans Service Representatives
                       (RVSRs) used the incorrect payment code for special monthly
                       compensation benefits. As a result, one veteran was underpaid $3,359
                       over a period of 2 years and 10 months and the other was underpaid $96
                       in 1 month.
                    	 In one of the cases, an RVSR did not establish entitlement to a special
                       monthly compensation benefit based on the evaluation of multiple
                       disabilities, as required. As a result, the veteran was underpaid
                       approximately $6,038 over a period of 1 year and 6 months.



VA Office of Inspector General                                                                    3
                                                                  Inspection of the VARO St. Louis, MO


                    	 In the final case, the error occurred when an RVSR incorrectly proposed
                       reducing benefits for a veteran's prostate cancer although medical
                       evidence showed the cancer was still active. Because we alerted VARO
                       staff to the error before the reduction took place, they were able to take
                       corrective action.

                    Without effective management of these temporary 100 percent disability
                    ratings, VBA is at increased risk of paying inaccurate financial benefits.
                    Fourteen of the total 19 errors we identified had the potential to affect
                    veterans’ benefits. We could not determine whether the evaluations would
                    have continued in nine of these cases because the veterans’ claims folders
                    did not contain medical evidence needed to evaluate each case.

                    The majority of the processing inaccuracies resulted from a lack of adequate
                    oversight to ensure staff took timely action to process reminder notifications
                    for VA reexaminations. According to VBA policy, VARO staff have 30
                    days to process a reminder notification by establishing an appropriate control
                    to initiate action. In the cases we reviewed, processing delays averaged
                    approximately 9 months from the time the reminder notifications generated
                    until staff took action to order the required medical reexaminations or
                    February 2014—the month our inspection began.

                    Although the VARO had a workload management plan that designated staff
                    and responsibility for processing reminder notifications, interviews with
                    VARO staff and management indicated other claims processing activities
                    had higher priority. VARO managers stated they focused on the priorities as
                    directed by Central Office, which included completing rating-related cases
                    that did not involve taking action on reminder notifications.

                    VARO management disagreed with 15 of the 19 errors we identified.
                    Management stated that failure to take timely actions on reminder
                    notifications to schedule medical examinations or to reduce benefits were
                    workload issues and would not result in errors from quality assurance
                    reviews. In addition, management indicated that although the VARO was
                    responsible for ensuring timely and appropriate action on these items,
                    workload demands hindered its ability to comply. Further, management said
                    the timeframe for taking action was flexible based upon the specifics of each
                    case. Although we provided VBA references that outlined the requirements
                    to timely process reminder notifications to schedule medical reexaminations
                    or reduce benefits, management continued to disagree with our assessments.1




                    1
                     VBA Fast Letter 08-09, “Prioritization and Processing of System-Generated Messages,”
                    April 8, 2008; Manual 21-1 Manual Rewrite (M21-1MR), Part III.iv.3.C.17, “Control of
                    Examinations;” M21-1MR.I.2.C, “Adverse Action Proposal Period.”


VA Office of Inspector General                                                                         4
                                                               Inspection of the VARO St. Louis, MO


Follow-Up to        In our previous report, Inspection of the VA Regional Office, St. Louis,
Prior VA OIG        Missouri (Report No. 11-00519-172, May 20, 2011), VARO staff incorrectly
Inspection
                    processed 20 of 30 temporary 100 percent disability evaluations we
                    reviewed. The majority of the errors occurred because VARO management
                    had no procedures or oversight measures in place to ensure staff input
                    suspense diaries in the electronic system to generate reminder notifications to
                    schedule the reexaminations. In response to our recommendations, the
                    Director agreed to follow VBA’s national review plan. Further, in response
                    to our national Audit of 100 Percent Disability Evaluations (Report Number
                    09-03359-71, January 24, 2011), the Acting Under Secretary for Benefits
                    agreed with our recommendations and took corrective action to automatically
                    populate suspense diaries in the electronic record.

                    During our current inspection, we did not identify any errors where VARO
                    staff did not input suspense diaries in the electronic system. Rather, the
                    suspense diaries were generating reminder notifications, but staff were not
                    taking timely actions to process them as required.

TBI Claims          The Department of Defense and VBA commonly define a TBI as a
                    traumatically induced structural injury or a physiological disruption of brain
                    function caused by an external force. The major residual disabilities of TBI
                    fall into three main categories—physical, cognitive, and behavioral. VBA
                    policy requires staff to evaluate these residual disabilities. Additionally,
                    VBA policy requires that employees assigned to the appeals team, the special
                    operations team, and the quality review team complete training on TBI
                    claims processing.

                    In response to a recommendation in our annual report, Systemic Issues
                    Reported During Inspections at VA Regional Offices (Report No.
                    11-00510-167, May 18, 2011), VBA agreed to develop and implement a
                    strategy for ensuring the accuracy of TBI claims decisions. In May 2011,
                    VBA provided guidance to VARO Directors to implement a policy requiring
                    a second signature on each TBI case an RVSR evaluates until the RVSR
                    demonstrates 90 percent accuracy in TBI claims processing. The policy
                    indicates second-signature reviewers come from the same pool of staff as
                    those used to conduct local station quality reviews.

                    We determined VARO staff incorrectly processed 4 of 30 TBI claims—
                    1 claim affected a veteran’s benefits and the remaining 3 cases had the
                    potential to affect veterans’ benefits. Generally, errors in processing TBI
                    claims were due to inadequate oversight procedures to ensure staff routed
                    TBI cases to the designated, specialized team for review, as required by local
                    policy. As a result, veterans did not always receive correct benefits
                    payments. VARO management agreed with our assessments in the four
                    cases we identified. Summaries of the four errors follow.




VA Office of Inspector General                                                                    5
                                                               Inspection of the VARO St. Louis, MO


                    	 An RVSR granted an incorrect effective date for migraine headaches
                       secondary to TBI and used the date of the VA examination as the date to
                       begin benefit payments. However, the correct effective date was
                       July 25, 2013—the date the veteran’s TBI-related claim was received by
                       VA. This error resulted in the veteran being underpaid by approximately
                       $1,053 over a 5-month period.
                    	 In one case, an RVSR incorrectly established separate evaluations for a
                       veteran’s TBI and coexisting mental condition although the examiner
                       stated it was not possible to differentiate which symptoms were
                       attributable to which condition. VBA policy requires staff to assign a
                       single evaluation when medical examiners cannot ascribe overlapping
                       symptoms to either a TBI-related disability or to a coexisting mental
                       condition.
                    	 In one case, an RVSR prematurely evaluated TBI-related migraine
                       headaches to include dizziness using two examination reports that
                       provided inconsistent VA examinations findings. The inconsistencies in
                       the examination findings resulted in a disparity in the disability
                       evaluation assigned. The RVSR did not return the examination reports
                       for clarification to the issuing clinic or health care facility as required.
                    	 In the remaining case, an RVSR assigned a 10 percent evaluation for
                       residual disability associated with a TBI. However, the objective
                       evidence provided in the TBI examination showed symptoms that
                       supported a 40 percent evaluation. Since the veteran’s combined
                       disability evaluation was 100 percent, the error did not affect monthly
                       benefits. However, if left uncorrected, future payments could be
                       affected. For example, entitlement to additional special compensation
                       may be paid when a veteran has a single disability evaluated as
                       100 percent disabling and also has multiple, independent disabilities that
                       are evaluated as 60 percent or more disabling. This sort of benefit could
                       result in an increase of $341 in monthly benefits.

                    The St. Louis VARO delegated responsibility for evaluating TBI-related
                    disability claims to staff assigned to the Special Operations team. Staff
                    assigned to the Special Operations team process all claims requiring special
                    handling because of their nature, such as those involving SMC, military
                    sexual trauma, TBI, or multiple sclerosis.

                    Generally, VARO staff routed TBI cases to the Special Operations team as
                    required; however, staff outside of the specialized team processed two of the
                    TBI cases with errors. VARO management told us they relied on the staff to
                    self-identify TBI claims and route the cases to the Special Operations team
                    for processing. We learned through interviews that RVSRs were aware of
                    this local requirement to route TBI claims to the Special Operations team,
                    but they did not always comply.



VA Office of Inspector General                                                                    6
                                                               Inspection of the VARO St. Louis, MO


Follow-Up to        In our previous report, Inspection of the VA Regional Office, St. Louis,
Prior VA OIG        Missouri (Report No. 11-00519-172, May 20, 2011), 14 of the 27 TBI claims
Inspection          reviewed contained processing errors. Generally, errors associated with TBI
                    claims processing occurred because RVSRs used VA medical examinations
                    that were insufficient for decision-making purposes. In response to our
                    recommendations for improvement, the Director agreed to ensure RVSRs
                    received additional training related to processing TBI claims. In September
                    2011, the OIG closed this recommendation.

                    During our current inspection, we identified one error resulting from staff
                    using an insufficient examination to evaluate TBI disability claim. The
                    corrective actions taken during the 2011 inspection were considered
                    effective.

Special             As the concept of rating disabilities evolved, VBA realized that for certain
Monthly             types of disabilities, the basic rate of compensation was not sufficient for the
Compensation
and Ancillary
                    level of disability present. Therefore, VBA established SMC to recognize
Benefits            the severity of certain disabilities or combinations of disabilities by adding
                    additional compensation to the basic rate of payment. SMC represents
                    payments for “quality of life” issues such as the loss of an eye or limb, or the
                    need to rely on others for daily life activities like bathing or eating.
                    Generally, VBA grants entitlement to SMC when the following conditions
                    exist:

                    	 Anatomical loss or loss of use of specific organs, sensory functions, or
                       extremities
                    	 Disabilities that render the veteran permanently bedridden or in need of
                       aid and attendance
                    	 Combinations of severe disabilities that significantly affect locomotion
                    	 Existence of multiple, independent disabilities that are evaluated as 50 to
                       100 percent disabling
                    	 Existence of multiple disabilities that render the veteran in need of such a
                       degree of special skilled assistance that without it, the veteran would be
                       permanently confined to a skilled-care nursing home

                    Ancillary benefits are secondary benefits that are considered when evaluating
                    claims for SMC. Examples of ancillary benefits are:

                    	 Dependents’ Educational Assistance under 38 United States Code §35
                    	 Specially Adapted Housing Grant
                    	 Special Home Adaptation Grant
                    	 Automobile and Other Conveyance and Adaptive Equipment Allowances




VA Office of Inspector General                                                                     7
                                                              Inspection of the VARO St. Louis, MO


                    VBA policy requires staff to address the issues of SMC and ancillary
                    benefits whenever they can grant entitlement. We examined whether VARO
                    staff accurately processed entitlement to SMC and ancillary benefits
                    associated with anatomical loss or loss of use of two or more extremities, or
                    bilateral blindness with visual acuity of 5/200 or worse.

                    VARO staff incorrectly processed 8 of 30 veterans’ claims involving SMC
                    and related ancillary benefits—5 of the errors affected veterans’ benefits and
                    resulted in 131 improper payments totaling approximately $153,011 from
                    April 2009 until February 2014. The three remaining cases had the potential
                    to affect veterans’ benefits. Generally, errors occurred because management
                    did not enforce local policies that the Special Operations team evaluate SMC
                    cases and that Decision Review Officers provide a second-signature review
                    of them prior to final processing for payment. As a result, veterans received
                    improper payments or were unaware of benefits to which they were entitled.

                    Summaries of the eight errors we identified within our statistical sample
                    follow:

                    	 An RVSR incorrectly granted service connection for blindness due to
                       heart disease, and then granted SMC on that basis. As a result, the
                       veteran was overpaid approximately $108,262 over a period of more than
                       3 years.
                    	 An RVSR assigned SMC for a veteran’s multiple sclerosis but did not
                       consider all disabilities associated with that diagnosis and assign
                       additional SMC, as required. This veteran was underpaid approximately
                       $34,009 over 4 years and 10 months.
                    	 A similar error occurred when an RVSR granted SMC for a veteran’s
                       spinal condition but overlooked a psychiatric disability that warranted an
                       increase in SMC. As a result, the veteran was underpaid approximately
                       $7,580 over a period of 1 year and 9 months.
                        An RVSR did not assign an increased level of SMC for all disabilities
                        associated with a veteran’s diabetes and peripheral neuropathy. In
                        addition, the RVSR invited the veteran to apply for a special adapted
                        housing grant rather than awarding the benefit outright although he was
                        already entitled to the benefit. As a result, the veteran was underpaid
                        $2,178 over a period of 1 year and was not given the special adapted
                        housing grant—a benefit worth up to $67,555.
                    	 In another case, an RVSR assigned the incorrect effective date to
                       establish SMC benefits related to amyotrophic lateral sclerosis, a
                       debilitating neurodegenerative disease. As a result, the veteran was
                       underpaid $981 in 1 month. VARO staff disagreed with our assessment,
                       stating that the date used to compensate the veteran for loss of use of
                       both hands due to the condition should have been two days prior to the
                       date VA received the claim from the veteran. However, VA occupational


VA Office of Inspector General                                                                   8
                                                                         Inspection of the VARO St. Louis, MO


                           treatment records showed loss of use of both hands prior to the date the
                           veteran submitted a claim for an increased evaluation. VBA policy
                           requires that RVSRs use the earliest effective date ascertainable for
                           increased evaluations of veterans’ service-connected conditions.2
                    	 Two errors occurred when RVSRs did not assign the correct hospital
                       codes for the veterans’ SMC. Generally, VARO staff must adjust SMC
                       payments if veterans are hospitalized at VA expense. If hospital codes
                       related to SMC are incorrect or omitted, erroneous adjustments and
                       benefit payments to veterans may occur.
                    	 In the last case, an RVSR used an insufficient examination report to
                       evaluate a veteran’s multiple sclerosis. VARO staff disagreed with our
                       assessment, stating that although the VA examination could be “more
                       descriptive,” they did not find it to be inadequate. In this case, we could
                       not determine the veteran’s level of disability based on the available
                       evidence. Per VBA policy the RVSR should have returned the
                       insufficient examination report to the medical examiner for clarification
                       before rating the claim.

                    As with TBI-related claims, the St. Louis VARO also delegated
                    responsibility for evaluating SMC claims to staff assigned to the Special
                    Operations team. VARO managers indicated that the VARO’s SMC policy
                    may be unclear. Specifically, they were not sure if the policy meant that the
                    Special Operations team was to evaluate all SMC cases or just cases where
                    veterans specifically claimed SMC. RVSRs we interviewed indicated they
                    worked any SMC issue that developed during their review of claims and
                    confirmed that they did not stop processing these claims to route them to the
                    Special Operations team. Staff outside the Special Operations team
                    evaluated four of the eight errors we identified.

                    VARO policy also required Decision Review Officers to conduct second-
                    signature reviews on SMC cases for accuracy. None of the eight cases with
                    errors had the required second-signature review by a Decision Review
                    Officer. VARO managers conducted second-signature reviews on three of
                    the cases, but did not identify the errors.

                    Recommendations

                    1.	 We recommended the St. Louis VA Regional Office Director develop
                        and implement a plan to ensure timely and appropriate action on
                        reminder notifications for medical reexaminations.
                    2.	 We recommended the St. Louis VA Regional Office Director develop
                        and implement a plan to review for accuracy the 559 temporary


                    2
                        Code of Federal Regulations, Part 3 “Adjudication,” Title 38, Section 3.400(o)(2).


VA Office of Inspector General                                                                               9
                                                               Inspection of the VARO St. Louis, MO


                        100 percent disability evaluations remaining from our inspection
                        universe and take appropriate actions.
                    3.	 We recommended the St. Louis VA Regional Office Director implement
                        a plan to ensure compliance with local policy requiring staff assigned to a
                        specialized team process traumatic brain injury and special monthly
                        compensation claims.
                    4.	 We recommended the St. Louis VA Regional Office Director clarify
                        local policy by clearly defining which special monthly compensation
                        claims require processing by a specialized team.
                    5.	 We recommended the St. Louis VA Regional Office Director implement
                        a plan to ensure staff comply with local policy requiring Decision
                        Review Officers to conduct second-signature reviews of special monthly
                        compensation claims.

Management          The VARO Director concurred with our recommendations. VARO
Comments            management acknowledged the importance of taking timely action to ensure
                    future medical reexaminations and will evaluate and implement steps to
                    address this issue. However, management reiterated its view that the
                    VARO’s failure to timely request medical reexaminations is neither an
                    error nor a procedural deficiency, but rather a workload management issue.
                    On July 1, 2014, VARO management clarified its response to the draft report
                    and confirmed it expects to complete the review of the 559 temporary
                    100 percent disability claims remaining from VA OIG’s inspection universe
                    by September 30, 2014. Management also confirmed its comments related to
                    28 temporary 100 percent disability evaluations pending on average for
                    61 days are unrelated to the 559 claims OIG provided the VARO for review.

                    VARO had implemented a daily prioritization tracker to locate special claims
                    such as TBI cases and route them to the Special Operations team for
                    processing as required. Management also planned to update its workload
                    management plan to clearly define which SMC claims require processing by
                    a specialized team. Management provided VARO staff a copy of a VSC
                    memorandum, dated December 23, 2005, requiring that Decision Review
                    Officers conduct secondary reviews of SMC claims to ensure accuracy.
                    Further, SMC training for rating staff was scheduled to occur by July
                    25, 2014.

OIG Response        The Director’s planned action to review the 559 temporary 100 percent
                    disability evaluations remaining from our inspection universe is generally
                    responsive. However, we remain concerned that potential delay in
                    completing this review due to workload priorities could result in continuation
                    of unnecessary and improper benefit payments. The Director’s comments
                    and planned actions related to TBI and SMC claims are responsive to the
                    recommendations. We will follow up on these actions during future
                    inspections.



VA Office of Inspector General                                                                  10
                                                              Inspection of the VARO St. Louis, MO


                    II. Management Controls

Systematic          We assessed whether VARO management had adequate controls in place to
Analysis of         ensure complete and timely submission of Systematic Analyses of
Operations
                    Operations (SAOs). We also considered whether VSC staff used adequate
                    data to support analyses and recommendations identified within each SAO.
                    An SAO is a formal analysis of an organizational element or operational
                    function. SAOs provide an organized means of reviewing VSC operations to
                    identify existing or potential problems and to propose corrective actions.
                    VARO management must publish annual SAO schedules designating the
                    staff required to complete the SAOs by specific dates. The VSC manager is
                    responsible for ongoing analysis of VSC operations, including completing
                    11 SAOs annually.

                    VARO management ensured all 11 SAOs were timely completed, contained
                    sufficient analyses using appropriate data, identified deficiencies, and made
                    recommendations for improvements as appropriate. Because the VARO
                    followed VBA policy when processing SAOs, we made no recommendation
                    for improvement.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, St. Louis,
Prior VA OIG        Missouri (Report No. 11-00519-172, May 20, 2011), we determined that the
Inspection
                    VSC completed all 12 SAOs timely. Although, 1 of the 12 SAOs did not
                    address all required elements, we determined VSC management generally
                    followed VBA policy when completing SAOs. As such, we made no
                    recommendation for improvement in this area.

Benefit             VBA policy provides for the payment of compensation to veterans for
Reductions          conditions they incurred or aggravated during military service. The amount
                    of monthly compensation to which a veteran is entitled may change because
                    his or her service-connected disability may improve. Improper payments
                    associated with benefit reductions generally occur when beneficiaries receive
                    payments they are not entitled to because VAROs do not take the actions
                    required to ensure veterans receive the correct payments for their levels of
                    disability.

                    When the VARO obtains evidence that a lower disability evaluation would
                    result in a reduction or discontinuance of current compensation payments,
                    VSC staff must inform the beneficiary of the proposed reduction in benefits.
                    In order to provide beneficiaries due process, VBA allows 60 days for the
                    veteran to submit additional evidence to show that compensation payments
                    should continue at their present level. If the VARO does not receive
                    additional evidence within that period, RVSRs must make a final
                    determination to reduce or discontinue the benefit. On the 65th day following
                    due process notification, action is required to reduce the evaluation and
                    thereby minimize overpayments.



VA Office of Inspector General                                                                 11
                                                               Inspection of the VARO St. Louis, MO


                    On April 3, 2014, VBA leadership modified its policy regarding the
                    processing of claims requiring reductions in benefits. The new policy no
                    longer requires VARO staff to take “immediate action” to process these
                    reductions. In lieu of merely removing this vague standard, VBA should
                    have provided clearer guidance on prioritizing this work to ensure sound
                    financial stewardship of these monetary benefits.

Finding 2 	         VARO Lacked Oversight To Ensure Immediate Action On Benefit
                    Reductions

                    VARO staff delayed processing 7 of the 30 claims that required rating
                    decisions to reduce or discontinue benefits. Generally, delays in processing
                    benefit reduction cases occurred because VARO managers did not provide
                    oversight to ensure staff processed these cases timely. As a result, VA made
                    57 improper payments to 7 veterans from May 2012 to March 2014. The
                    improper payments made during this period totaled approximately $54,193.

                    Of the seven cases with processing delays, an average of 8 months elapsed
                    before staff took or should have taken the required actions. The most
                    significant improper payment resulting from delays in reducing benefits
                    occurred when staff received evidence that a medical condition had
                    improved. In March 2013, VARO staff proposed reducing the veteran’s
                    evaluation from 100 to 20 percent disabling. However, the final action to
                    reduce benefits did not occur until December 2013—7 months beyond the
                    date staff should have taken the action. As a result, and despite the evidence
                    showing the medical condition had improved, VA continued to make
                    monthly payments totaling approximately $16,497.

                    Generally, delays in processing benefit reductions occurred because VARO
                    management did not prioritize this workload. VARO managers and staff told
                    us they did not use the VARO’s workload management plan because a
                    national initiative had redirected available staff and resources to process the
                    VARO’s oldest rating-related pending claims instead.

                    In response to a recommendation following a May 2012 Compensation
                    Service Site Visit, VARO staff developed a plan to improve timeliness in
                    processing work related to due process/adverse actions, including the
                    VARO’s rating reduction workload. According to the Compensation Service
                    Site Visit Summary, the VARO had nearly 700 due process cases pending on
                    average for 127 days, compared with all of VBA that averaged about
                    109 days. Of those cases, more than 60 percent had been pending 80 days or
                    more, and almost 66 percent had expired suspense dates. However, the VSC
                    Manager stated the effectiveness of the action plan to address timeliness was
                    unknown because the VARO had shifted its focus to processing rating-
                    related work, prioritized by age of claim. VARO managers and staff told us
                    that the focus of VARO claims processing work continued to be goals set



VA Office of Inspector General                                                                  12
                                                             Inspection of the VARO St. Louis, MO


                    forth by VBA Central Office, which did not include processing rating
                    reduction claims.

                    Although the VSC Manager acknowledged the VARO’s expectation to take
                    timely action on rating decisions involving benefits reduction, the VARO
                    disagreed with our assessments in the seven cases we identified as having
                    processing delays. Further, VSC management indicated that workload
                    management issues were neither errors nor procedural deficiencies. As such,
                    VSC management did not believe that errors existed in processing these
                    benefit reductions.

                    In response to the VARO’s non-concurrences with the seven errors we
                    identified, we reconsidered our position but continued to find the VARO
                    non-compliant with VBA policy. In addition to providing VBA references
                    that showed timeliness requirements for due process periods, we pointed out
                    the VARO’s own workload management plan required staff to take weekly
                    action on these types of claims.

                    Further, we reemphasized that our inspections are strictly compliance
                    reviews, designed to identify as errors any conditions where the VAROs do
                    not adhere to VBA policy. We concluded that providing oversight of this
                    high-risk area of benefit reductions is within the OIG’s purview and clearly
                    necessary to ensure sound financial stewardship and minimize improper
                    benefit payments.

                    Recommendation

                    6.	 We recommended the St. Louis VA Regional Office Director implement
                        a plan to ensure claims processing staff prioritize actions related to
                        benefit reductions to minimize improper payments to veterans.

Management          The VARO Director concurred with our recommendation but indicated
Comments            timely actions on benefits reduction cases are dependent upon competing
                    workload demands and adherence to a national workload prioritization
                    strategy.

OIG Response        We appreciate the Director’s agreement to take action in response to the
                    recommendation. However, we remain concerned that balancing this
                    workload with competing demands may not ensure that benefit reduction
                    claims receive the priority processing required to minimize improper
                    payments. We will follow up on management’s actions during future
                    inspections.




VA Office of Inspector General                                                                13
                                                             Inspection of the VARO St. Louis, MO


Appendix A          VARO Profile and Scope of Inspection

Organization        The St. Louis VARO administers a variety of services and benefits,
                    including compensation and pension benefits; education benefits; vocational
                    rehabilitation and employment assistance; benefits counseling; and outreach
                    to former prisoners of war and homeless, elderly, minority, and women
                    veterans.

Resources           As of February 2014, VBA reported the St. Louis VARO had a staffing level
                    of 815 full-time employees. Of this total, the VSC had 237 employees
                    assigned.

Workload            As of February 2014, the VBA reported 12,373 pending compensation
                    claims. The average number of days pending for claims was 171.4 days—
                    56.4 days greater than VBA’s FY 2014 target of 115 days.

Scope and           VBA has 56 VAROs and a VSC in Cheyenne, WY, that process disability
Methodology         claims and provide a range of services to veterans. We evaluated the St.
                    Louis VARO to see how well it accomplishes this mission.

                    We reviewed selected management, claims processing, and administrative
                    activities to evaluate compliance with VBA policies regarding benefits
                    delivery and nonmedical services provided to veterans and other
                    beneficiaries. We interviewed managers and employees and reviewed
                    veterans’ claims folders. Prior to conducting our onsite inspection, we
                    coordinated with VA OIG criminal investigators to provide a briefing
                    designed to alert VARO staff to the indicators of fraudulent claims
                    processing.

                    Our review included 30 (5 percent) of 589 temporary 100 percent disability
                    evaluations selected from VBA’s Corporate Database. These claims
                    represented all instances in which VARO staff had granted temporary
                    100 percent disability evaluations for at least 18 months as of February
                    4, 2014. This is generally the longest period a temporary 100 percent
                    disability evaluation may be assigned without review, according to VBA
                    policy. We provided VARO management with 559 claims remaining from
                    our universe of 589 for its review. We reviewed 30 (37 percent) of
                    81 disability claims related to TBI that the VARO completed from October
                    through December 2013. Additionally, we examined 30 of 48 veterans
                    claims involving entitlement to SMC and ancillary benefits completed by
                    VARO staff from January 2013 through December 2013.

                    Prior to VBA’s consolidating Fiduciary Activities nationally, each VARO
                    was required to complete 12 SAOs. However, following Fiduciary
                    consolidation, VAROs were only required to complete 11 SAOs. Therefore,
                    we reviewed the 11 SAOs related to VARO operations. Additionally, we



VA Office of Inspector General                                                                14
                                                              Inspection of the VARO St. Louis, MO


                    looked at 30 (9 percent) of 326 completed claims that proposed reductions in
                    benefits from October through December 2013.

                    Where we identify potential procedural inaccuracies, we provide this
                    information to help the VARO understand the procedural improvements it
                    can make for enhanced stewardship of financial benefits. We do not provide
                    this information to require the VAROs to adjust specific veterans’ benefits.
                    Processing any adjustments per this review is clearly a VBA program
                    management decision.
Data Reliability    We used computer-processed data from the Veterans Service Network’s
                    Operations Reports and Awards. To test for reliability, we reviewed the data
                    to determine whether any data were missing from key fields, included any
                    calculation errors, or were outside the time frame requested. We assessed
                    whether the data contained obvious duplication of records, alphabetic or
                    numeric characters in incorrect fields, or illogical relationships among data
                    elements. Further, we compared veterans’ names, file numbers, Social
                    Security numbers, VARO numbers, dates of claim, and decision dates as
                    provided in the data received with information contained in the 120 claims
                    folders we reviewed related to temporary 100 percent disability evaluations,
                    TBI claims, SMC and ancillary benefits, and completed claims involving
                    benefits reductions.

                    Our testing of the data disclosed that they were sufficiently reliable for our
                    inspection objectives. Our comparison of the data with information
                    contained in the veterans’ claims folders reviewed in conjunction with our
                    inspection of the VARO did not disclose any problems with data reliability.

                    As reported by VBA’s Systemic Technical Accuracy Review program as of
                    February 2014, the overall claims-based accuracy of the VARO’s
                    compensation rating-related decisions was 85.7 percent. We did not test
                    the reliability of these data. As reported by VBA’s Office of Field
                    Operations, VBA’s national accuracy goal for claims-based compensation
                    rating-related decisions was 94 percent and for issue-based compensation
                    rating-related decisions was 97 percent.

Inspection          We conducted this inspection in accordance with the Council of the
Standards           Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation.




VA Office of Inspector General                                                                 15
                                                                           Inspection of the VARO St. Louis, MO


Appendix B           Inspection Summary

                     Tables 2 reflects the operational activities inspected, applicable criteria, and
                     whether or not we had reasonable assurance of VARO compliance.

                            Table 2. St. Louis VARO Inspection Summary

         Operational                                     Criteria                                 Reasonable
          Activities                                                                              Assurance of
          Inspected                                                                               Compliance
          Disability
           Claims
          Processing
                             Determine whether VARO staff properly reviewed temporary
       Temporary
                             100 percent disability evaluations. (38 CFR 3.103(b)) (38 CFR
       100 Percent
       Disability
                             3.105(e)) (38 CFR 3.327) (M21-1 MR Part IV, Subpart ii,                  No
                             Chapter 2, Section J) (M21-1MR Part III, Subpart iv, Chapter
       Evaluations
                             3, Section C.17.e)
                             Determine whether VARO staff properly processed claims for
       Traumatic Brain
       Injury Claims
                             service connection for all disabilities related to in-service TBI.       No
                             (FL 08-34 and 08-36) (Training Letter 09-01)
                             Determine whether VARO staff properly processed SMC and
       Special Monthly
                             correctly granted entitlement to ancillary benefits.
       Compensation and
                             (38 CFR 3.350, 3.352, 3.807, 3.808, 3.809, 3.809a, 4.63, and
                                                                                                      No
       Ancillary Benefits
                             4.64) (M21-1MR IV.ii.2.H and I)
         Management
          Controls
       Systematic            Determine whether VARO staff properly performed formal
       Analysis of           analyses of their operations through completion of SAOs.                 Yes
       Operations            (M21-4, Chapter 5)
                             Determine whether VARO staff timely and accurately
                             processed disability evaluation reductions or terminations.
                             (38 CFR 3.103(b)(2)), (38 CFR 3.105(e)), (38 CFR 3.501),
       Benefit Reductions
                             (M21-1MR.IV.ii.3.A.3.e), (M21-1MR.I.2.B.7.a), (M21-
                                                                                                      No
                             1MR.I.2.C), (M21-1MR.I.ii.2.f), (M21-4, Chapter 2.05(f)(4)),
                             (Compensation & Pension Service Bulletin, October 2010)
       Source: VA OIG
       CFR=Code of Federal Regulations, FL=Fast Letter, M=Manual, MR=Manual Rewrite




VA Office of Inspector General                                                                               16
                                                                        Inspection of the VARO St. Louis, MO


Appendix C             VARO Director’s Comments


                  Department of
                  Veterans Affairs
                                                                 Memorandum
          Date:      June 23, 2014

          From:      Director, VA Regional Office St. Louis, Missouri

          Subj:      Inspection of the VA Regional Office, St. Louis, Missouri

            To:      Assistant Inspector General for Audits and Evaluations (52)


                  1. The St. Louis VARO’s comments are attached on the OIG Draft Report:
                     Inspection of the VA Regional Office, St. Louis, Missouri.

                  2. Please refer questions to Mr. Aaron Givens, Veterans Service Manager, at
                     314-552-9801.


                     (original signed by:)
                     S. Nick Nickens, Acting Director 

                     St. Louis Regional Office



                     Attachment




VA Office of Inspector General                                                                           17
                                                                       Inspection of the VARO St. Louis, MO


                                                                                            ATTACHMENT
                                   ST. LOUIS VA REGIONAL OFFICE

                                  COMMENTS ON OIG DRAFT REPORT

                                         DATED JUNE 6, 2014 


Recommendation 1: We recommend the St. Louis VA Regional Office Director develop and
implement a plan to ensure timely and appropriate action on reminder notifications for medical
examinations.

St. Louis Response: Concur

While timely action is expected, the timeframe for that action varies based upon the specifics of each
case, to include balancing workload priorities. While management acknowledges the importance of
timely action on future medical examinations, workload management issues are neither errors nor
procedural deficiencies. We do not agree that an error exists in the processing of this end product,
but will evaluate and implement steps to address this issue.

Target completion date: TBD. Completion will be determined based on national workload directives.

Recommendation 2: We recommend the St. Louis VA Regional Office Director develop and
implement a plan to review for accuracy the 559 temporary 100% disability evaluations remaining
from our inspection universe and take appropriate actions.

St. Louis RO Response: Concur

Temporary 100% disability evaluations will be worked according to age in accordance with Office of
Field Operations guidance received February 6, 2014 as follows:

   By July 31, 2014 there will be no temporary 100% evaluations pending in the inventory that are
    greater than 250 days old.
   By September 30, 2014 there will be no temporary 100% evaluations pending in the inventory that
    are greater than 125 days old.

The St. Louis Regional Office currently has 28 temporary 100% evaluations pending. That inventory
has an average days pending of 61 days.

Addendum to VARO Response to Draft Inspection Report, July 1, 2014 email, received from
St. Louis VARO Acting Director:

In response to your request for clarification, the following is provided:

   The 28 pending cases were the 684 EPs pending in VOR at the time of our response.
   The remaining cases from the original 559 on the list provided by OIG will be reviewed by
    September 30, 2014.

Target Completion Date: September 30, 2014

Recommendation 3: We recommend the St. Louis VA Regional Office Director implement a plan to
ensure compliance with local policy requiring staff assigned to a specialized team process traumatic
brain injury and special monthly compensation claims.

St. Louis RO Response: Concur




VA Office of Inspector General                                                                          18
                                                                   Inspection of the VARO St. Louis, MO


For Traumatic Brain Injury (TBI), the VSC implemented the use of a daily prioritization summary
tracker which quickly identifies special claims and their current location within the division. Claims on
this tracker that are found to be outside of the special operations team will be placed in the
appropriate lane.

Recommendation 4: We recommend the St. Louis VA Regional Office Director clarify local policy by
clearly defining which special monthly compensation claims require processing by a specialized team.

St. Louis Response: Concur

The workload management plan of the VSC will be updated with the following information:

    RVSRs external to the Special Operations Team may only work SMC K and SMC S
    all other levels of special monthly compensation must be referred to the special operations team.

This information will be reiterated during future training on SMC Target Completion Date: July 25,
2014

Recommendation 5: We recommend the St. Louis VA Regional Office Director implement a plan to
ensure staff comply with local policy requiring Decision Review Officers to conduct second- signature
reviews of special monthly compensation claims.

St. Louis Response: Concur

All rating staff employees have been provided another copy the December 23, 2005 VSC
Memorandum related to Decision Review Officers conducting second-signature reviews on SMC
ratings for accuracy. This document will also be discussed during all future SMC rating trainings
within the VSC, which will occur on or before July 25, 2014.

Target Completion Date: July 25, 2014

Recommendation 6: We recommend the St. Louis VA Regional Office Director implement a plan to

ensure claims processing staff prioritize actions related to benefit reductions to minimize improper

payments to veterans.


St. Louis Response: Concur

The St. Louis Regional Office is currently operating in concert with the national workload strategy.
According to the Workload Management Plan, the Non Rating Team is responsible for processing all
600 EPs. The due process cases that require rating decisions are routed to the respective Express,
Core or Special Operations Lane for processing to ensure better workload management. The current
process is that as the respective lanes promulgate rating decisions on any cases involving proposals
on potential adverse actions, the 600 end products are established in VBMS and assigned a lane.

Timely action is expected, but the timeframe for that action sometimes varies based on competing
workload demands and national directives. The St. Louis RO will continue taking action on benefit
reductions as timely as workload demands allow while adhering to national workload prioritization
strategy.

Target Completion Date: TBD. Completion will be determined based on national workload directives.




VA Office of Inspector General                                                                         19
                                                     Inspection of the VARO St. Louis, MO


Appendix D          OIG Contact and Staff Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.
                      Acknowledgments	   Nora Stokes, Director
                                         Robert Campbell
                                         Kyle Flannery
                                         Lee Giesbrecht
                                         Ambreen Husain
                                         Suzanne Love
                                         Michelle Santos-Rodriguez
                                         Lisa Van Haeren
                                         Nelvy Viguera Butler




VA Office of Inspector General                                                        20
                                                             Inspection of the VARO St. Louis, MO


Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Central Area Director
                    VA Regional Office St. Louis Director

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: Roy Blunt, Claire McCaskill
                    U.S. House of Representatives: William "Lacy" Clay Jr., Emanuel Cleaver,
                       Sam Graves, Vicky Hartzler, Billy Long, Blaine Luetkemeyer, Jason
                       Smith, Ann Wagner




                This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                21
